           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

         THE SOCIAL SECURITY
 ADMINISTRATION’S IMPLEMENTATION OF
   THE OPEN GOVERNMENT DIRECTIVE

     February 2012   A-02-10-20102




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      February 17, 2012                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Implementation of the Open Government Directive
           (A-02-10-20102)


           OBJECTIVE
           The objective of our evaluation was to assess the Social Security Administration’s
           (SSA) implementation of the Open Government Directive.

           BACKGROUND
           On January 21, 2009, the President issued a Memorandum on Transparency and Open
           Government that called for a Government that was transparent, participatory, and
           collaborative. The President’s Memorandum instructed the Director of the Office of
           Management and Budget (OMB) to issue an Open Government Directive. OMB
           released guidance in December 2009 1 for all executive departments and agencies on
           the actions needed to implement the Open Government Directive.

           Per OMB’s guidance, transparency promotes accountability by providing the public with
           information about what the Government is doing. 2 Participation allows the public to
           contribute ideas and expertise so their Government can make policies with the benefit
           of information that is widely dispersed in society. 3 Collaboration improves the
           Government’s effectiveness by encouraging partnerships and cooperation in the
           Government, across levels of Government, and between the Government and private
           institutions. 4



           1
               OMB, M-10-06, Open Government Directive (December 8, 2009).
           2
               Id. at p. 1.
           3
               Id.
           4
               Id.
Page 2 - The Commissioner


OMB’s guidance includes four major objectives: (1) publish Government information
online; (2) improve the quality of Government information; (3) create and institutionalize
a culture of open Government; and (4) create an enabling policy framework for open
Government. 5 To help meet these objectives, executive departments and agencies are
required to create an Open Government Webpage and publish an Open Government
Plan (OGP)6 on the Webpage that describes how they will improve transparency and
integrate public participation and collaboration into their activities. 7 Per the Open
Government Directive, agencies are required to update their OGPs every 2 years. 8
They are also required to implement a flagship initiative that addresses one or more of
the three open Government principles as well as release at least three previously
unavailable high-value electronic data sets on Data.gov. 9 Finally, agencies are required
to designate a high-level senior official to be accountable for the quality and internal
controls over Federal spending information that is publicly disseminated through
USAspending.gov. 10

RESULTS OF REVIEW
SSA implemented the initial requirements of the Open Government Directive. It
released an Open Government Website and Plan that describe its plans to increase
transparency, participation, and collaboration in its operations. SSA launched three
flagship initiatives – the Spanish Retirement Estimator, Online Service Enhancement,
and Online Life-Expectancy Calculator. In addition, it released multiple electronic data
sets on Data.gov and provided a list of data sets it planned to release. Finally, SSA
named a high-level official to be accountable for SSA’s spending information released
on USAspending.gov.

While the Agency met the initial requirements of the Open Government Directive, future
OGPs would be more useful if they provided a clearer description of how SSA planned
to use the principles of transparency, participation, and collaboration to help it meet its
core mission and strategic goals. Additionally, SSA has the opportunity to increase its
transparency by releasing multiple years of data on Data.gov for those data sets that
SSA can release more than 1-year’s worth of data but currently does not. This would
allow the public to track performance over time.



5
    OMB, M-10-06, supra. at pp. 2-6.
6
 Although other Federal agencies use OGP as an acronym for Open Government Partnership, for the
purpose of this report, OGP is the acronym for Open Government Plan.
7
    OMB, M-10-06, supra, at pp. 2 and 4.
8
    OMB, M-10-06, supra, at p. 5.
9
    OMB, M-10-06, supra, at pp. 2 and 10.
10
     OMB, M-10-06, supra, at pp. 3 and 4.
Page 3 - The Commissioner


THE OGP

SSA released its OGP on June 24, 2010. It outlined the Agency’s plan to increase
transparency and expand participation and collaboration in its operations. SSA outlined
four goals in the OGP.

       •   Increase Transparency
       •   Expand Participation and Collaboration
       •   Implement Open Government Flagship Initiatives
       •   Make Open Government Sustainable

The OGP contained descriptions of three flagship initiatives – the Spanish Retirement
Estimator, Online Service Enhancement, and Online Life-Expectancy Calculator. It also
provided a list of data sets previously posted to Data.gov and those it planned to post in
the future.

OGP Connection to SSA’s Strategic Plan

The Open Government Directive states the OGP is a public roadmap that details how
an agency will incorporate the Open Government principles into its core mission
objectives. 11 The Directive also provides that the OGP should detail the specific actions
the agency will undertake and the timeline on which it will do so. 12

SSA’s OGP recognized the connection between the Open Government Initiative and the
Agency’s strategic goals. The OGP included a chart in the appendices entitled,
Examples of Alignment Between Open Government Initiatives and the Agency Strategic
Plan. The chart provided a cursory description of the crossover between Open
Government and strategic goal achievement, though it lacked detail. The description of
the Agency’s flagship initiatives, which supported the strategic goal to Improve Our
Retiree and Other Core Services, is another example of a link to an Agency strategic
goal in the OGP.

The OGP did not always clearly describe how the Open Government principles of
transparency, participation, and collaboration would help the Agency meet all of its
strategic goals. For example, the OGP did not describe how the Agency would
leverage transparency, participation, and collaboration to help eliminate the hearings
backlog or improve the speed of the disability process, two of SSA’s current strategic
goals.

SSA staff members informed us that they were mindful of the Agency’s strategic goals
and core mission when developing the OGP. They further informed us that the OGP did
not describe every activity in which SSA used the Open Government principles, and
including them would be too much detail for a strategic OGP.
11
     OMB, M-10-06, supra at p. 7.
12
     Id.
Page 4 - The Commissioner


OGP Connection to SSA’s Annual Performance Plan

There was a limited connection between the OGP and specific annual performance
goals in SSA’s Annual Performance Plan. While one of the planned milestones in the
OGP was for SSA’s Annual Performance Plan to reflect Open Government activities,
the OGP did not clearly describe how SSA would use the Open Government principles
of transparency, participation, and collaboration to help meet specific annual
performance goals.

SSA noted that it was assessing its experience and work with cross-Government
communities to understand the connection between the Open Government principles
and performance measures. Staff stated that gaining more experience would help SSA
link open Government efforts to numeric outcomes with a reasonable level of
confidence.

DATA.GOV

SSA has released multiple data sets on Data.gov. Per the Open Government Directive,
agencies should publish information online in an open format that can be retrieved,
downloaded, indexed, and searched by commonly used Web search applications, to the
extent practicable and subject to valid restrictions. 13 An open format is platform-
independent, machine-readable, and made available to the public without restrictions
that would impede the reuse of that information. 14 SSA has generally met the
requirements with the data it released on Data.gov.

The Open Government Directive also states that transparency promotes accountability
by providing the public with information about what the Government is doing. The data
SSA released on Data.gov provided the public the opportunity to determine what SSA is
doing. For example, the public can determine how many retirement claims individuals
filed via the Internet or the average hearings request processing time by hearing office.

While SSA provided multiple years of data in some cases, in other cases it did not. For
example, the data set on Data.gov reporting the number of retirement claims filed via
the Internet included statistics for the last 4 years, allowing the public to see SSA’s
performance over time. The data set reporting average hearings processing time by
hearings office was for only 1 year.

SSA staff noted that it plans to release additional data as it is available and as
resources permit. SSA also noted it is prohibited from releasing some data sets
longitudinally since doing so would increase the risk of particular individuals being
identified.



13
     OMB, M-10-06, supra at p. 2.
14
     Id.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
In response to the Open Government Directive, SSA implemented multiple initiatives
within relatively short timeframes. For example, it released an Open Government
Website and Plan, launched three flagship initiatives, and released multiple electronic
data sets on Data.gov.

Future OGPs would be more helpful if they provided clearer descriptions of how SSA
plans to use transparency, participation, and collaboration to meet its core mission
activities and specific strategic and annual goals. SSA noted the importance of
connecting the OGP to the Agency’s mission and goals in a summary of lessons it
learned 1 year after the release of its OGP. One of the lessons learned was,
“Measuring success of open government in terms of outcomes is difficult, especially in
the early going; be sure to connect Open Government initiatives to the agency’s mission
and goals.”

Also, SSA would increase its transparency if all the data sets on Data.gov provided the
public with the opportunity to track SSA’s performance for multiple years. We
understand that SSA will not release multiple years of some data sets since doing so
would pose a privacy risk by increasing the possibility of re-identification when
combined with other data.

Accordingly, we recommend that SSA:

1. More clearly describe in future OGPs how the Agency will use the Open
   Government principles of transparency, participation, and collaboration to meet its
   core mission and strategic and annual goals.

2. Ensure SSA’s data on Data.gov allow for multiple year analyses of SSA’s
   performance, whenever doing so would not be cost-prohibitive or create a privacy
   risk.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of the
Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                         Appendix A

Acronyms
OGP    Open Government Plan
OIG    Office of the Inspector General
OMB    Office of Management and Budget
SSA    Social Security Administration
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Obtained and reviewed the President’s January 21, 2009 Memorandum on
    Transparency and Open Government.

•   Obtained and reviewed pertinent Office of Management and Budget memorandums,
    including the Open Government Directive.

•   Obtained and reviewed the Social Security Administration’s (SSA) Open
    Government Plan. We reviewed the draft Plan, dated April 7, 2010, and the final
    Plan, dated June 24, 2010.

•   Reviewed SSA’s Open Government Website (http://www.ssa.gov/open/).

•   Reviewed SSA’s data sets on Data.gov
    (http://explore.data.gov/catalog/raw?Dataset-
    Summary_Agency=Social+Security+Administration).

•   Met with management and staff of SSA’s Office of Open Government to discuss its
    efforts to implement the Open Government Directive.

•   Met with Office of Systems and Office of Acquisition and Grants staffs to discuss the
    processes SSA uses to place its spending information on USAspending.gov.

We conducted our evaluation between March and August 2011 in New York, New York,
and Baltimore, Maryland. The primary entity audited was the Office of Open
Government, Office of Communications.

We conducted our review in accordance with the Council of the Inspectors General
on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 24, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s
           Implementation of the Open Government Directive” (A-02-10-20102)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa C. Rojas at (410) 966-7284.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S IMPLEMENTATION OF THE
OPEN GOVERNMENT DIRECTIVE” (A-02-10-20102)

GENERAL COMMENTS

We are pleased you agree we met the initial requirements of the Open Government Directive and
are proud of our progress in meeting our stated objectives and milestones, including:

   •   Publishing over 30 datasets on our Open Government portal and data.gov;
   •   Releasing and subsequently enhancing the Open Government website;
   •   Completing the three flagship initiatives;
   •   Using new tools to crowdsource ideas and enhance the reach of public and employee
       participation;
   •   Significantly enhancing our social media presence; and
   •   Hosting an interactive webinar broadcast for college students and young workers.

RESPONSE TO RECOMMENDATIONS

Recommendation 1

More clearly describe in future Open Government Plans (OGP) how the Agency will use the
open Government principles of transparency, participation, and collaboration to meet its core
mission and strategic and annual goals.

Response

We agree. We are currently refreshing our OGP and will incorporate more descriptions where
applicable.

Recommendation 2

Ensure the Social Security Administration’s (SSA) data on Data.gov allow for multiple year
analyses of SSA’s performance, whenever doing so would not be cost prohibitive or create a
privacy risk.

Response

We agree. We will factor the release of multiple year data into our process for prioritizing the
release of high value datasets to Data.gov.




                                               C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Rajula Chandran, Senior IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-02-10-20102.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
